Case: 20-30058 document: 00515815475

Page: 1 £)ate Filed

®ntteb States; Court of Uppeate
for tfje Jftftf) Circuit

: 04/09/2021

United States Court of Appeals
Fifth Circuit

FILED
April 9,2021

No. 20-30058

Lyle W. Cayce
Clerk '

Willard Hall,
!

Petitioner—Appellant,
versus
Edward Bickham, Warden, B. B. Rayburn Correctional Center,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:19-CV~10783

ORDER:
Willard Hall, Louisiana prisoner # 595605, seeks a certificate of
appealability (COA) to appeal the district court’s denial of his 28 U.S.C.
§ 2254 application challenging his convictions for aggravated battery and
attempted manslaughter. Hall argues that: (1) he was deprived of his right to
a “fair and impartial trial” because his jury did not represent a fair crosssection of his community; (2) he received ineffective assistance when his
counsel (a) failed to procure a pretrial hearing on probable cause and
(b) excluded men from the jury or failed to challenge the composition of the
jury; and (3) the prosecutor engaged in misconduct by suborning perjury.

!

Case: 20-30058 ^^)ocument: 00515815475

Page: 2 £>ate Filed: 04/09/2021

No. 20-30058

A COA may issue “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003). Where the district court
denies relief on the merits, an applicant must show that reasonable jurists
“would find the district court’s assessment of the constitutional claims
debatable or wrong. ” Slack v. McDaniel, 529 U.S. 473,484 (2000). Hall fails
to meet the requisite standard.
Hall does not brief any challenge to the district court’s dismissal of his
other claims. He has abandoned any such challenges. See Hughes v. Johnson,
191 F.3d 607,613 (5th Cir. 1999).
Hail raises for the first time in his COA pleadings his claim that he
received ineffective assistance when his counsel failed to question the victims
at trial about various matters related to the offense. As such, we lack
jurisdiction to consider that claim. See Black v. Davis, 902 F.3d 541,545 (5th
Cir. 2018).
Hall’s motion for a COA is DENIED.

JenniferJJ&lker Elrod
United States Circuit Judge

2

#

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

WILLARD HALL

CIVIL ACTION

VERSUS

NO. 19-10783

ROBERT C. TANNER, WARDEN
RAYBURN CORRECTIONAL CENTER

SECTION “I”(4)

JUDGMENT
The Court having approved the Report and Recommendation of the Chief United States
Magistrate Judge and having adopted it as its opinion herein; accordingly,
IT IS ORDERED, ADJUDGED, AND DECREED that there be judgment in favor of
the respondent, Warden Robert C. Tanner, and against the petitioner, Willard Hall, dismissing with
•

■

prejudice Hall’s petition for issuance of a writ of habeas corpus pursuant to 28 U.S.C. § 2254.
New Orleans, Louisiana, this 17th day of December, 2019.

: AFRICK
UNITED STATES DISTRICT JUDGE

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WILLARD HALL

CIVIL ACTION

VERSUS

NO. 19-10783

ROBERT C. TANNER, WARDEN
RAYBURN CORRECTIONAL CENTER

SECTION “I”(4)

REPORT AND RECOMMENDATION
This matter was referred to a United States Magistrate Judge to conduct hearings, including
an evidentiary hearing if necessary, and to submit proposed findings and recommendations
pursuant to 28 U.S.C. § 636(b)(1)(B) and (C), and as applicable, Rule 8(b) of the Rules
Governing Section 2254 Cases. Upon review of the entire record, the Court has determined that
this matter can be disposed of without an evidentiary hearing. See 28 U.S.C. § 2254(e)(2).1
I.

Factual and Procedural Background
The petitioner, Willard Hall (“Hall”), is a convicted inmate incarcerated in the B.B. “Sixty”

Rayburn Correctional Center in Angie, Louisiana.2 On January 10, 2011, Hall was charged by
Bill oi Information in Washington Parish with two counts of attempted first degree murder of a
police officer.3 He entered a plea of not guilty on February 14, 2011,4

'Under 28 U.S.C. § 2254(e)(2), an evidentiary hearing is held only when the petitioner shows that either the
claim relies on a new. retroactive rule of constitutional law that was previously unavailable or a factual basis that could
not have been previously discovered by tire exercise of due diligence and the facts underlying tire claim show by clear
and convincing evidence that, but for the constitutional error, no reasonable jury would have convicted the petitioner.
2Rec. Doc, No. 3.
3St. Rec. Vol. 3 of 7, Bill of Information, 1/10/11.
4St. Rec. Vol. 1 of 7, Minute Entry, 2/14/11.

The record reflects that, around midnight on November 12, 2010, Sergeant Randy Revere
with the Washington Parish Sheriffs Office received a call from Hall’s then-wife Deborah because
Hall had locked her out of their house for the second night and refused to let her back inside.5
Upon their arrival at the scene, Sergeant Roy Lee and Deputy Timothy Evans met with Mrs. Hall,
and she asked them to assist her in getting inside the house. Deputy Evans slightly opened the
outer storm door to knock on the wooden front door. He announced his presence and that he was
with the Washington Parish Sheriffs Office. After the first or second knock, Hall called out, “I
don’t give a f*** who you are, get off my property. 5*6
Hall then opened the wooden door but not the storm door, and was standing there naked
holding a gun at his side. Deputy Evans told Hall at least twice to drop his weapon, and he did not
comply. The officers collectively ordered Hall four or five times to drop his weapon and he did
not comply. Sergeant Lee then told Hall that if he did not drop his weapon, he would be tasered.
Hall, who appeared agitated and irate, cursed and told the officers to get off of his property.
Sergeant Lee thought Hall was preparing to shoot because he appeared jittery. With both
doors open, Sergeant Lee deployed his taser. Hall, however, closed the wooden door which broke
the leads to the taser. When the storm door closed, Deputy Evans heard a loud bang, saw the glass
in the storm door shatter, and felt a burn in his right thigh. He discovered that a round came
through his pants made a rash on his skin and nicked his magazine pouch. Approximately thirtyfive seconds later, Sergeant Lee heard a second shot and realized the defendant shot again. Almost
immediately after hearing the second shot, Sergeant Lee’s middle finger on his right hand was

5The facts were taken from the unpublished opinion of the Louisiana First Circuit Court of Appeal on direct
appeal. St. Rec. Vol. 3 of 7, 1st Cir. Opinion, 2012-KA-1812, pp. 2-4, 6/11/13.
6Id. at p.2.
2

grazed by a bullet and went completely numb. Both officers retreated to their units to take cover
and call for additional units.
In the meantime, Hall called 9-1-1 from inside the house and reported that the officers
“shof’ him with a taser. He demanded that state troopers report to the scene. Hall also spoke with
Sergeant Revere over the phone, and Sergeant Revere convinced him to go outside without his
firearm to talk to Sergeant Lee and Deputy Evans. When Detective Glen McClendon reported to
the scene to investigate, Hall was in the officers' custody.
Hall was tried before a jury on March 12 and 13, 2012, and found guilty of the lesser
charges of aggravated battery of Deputy Evans and attempted manslaughter of Deputy Lee.7 On
May 7, 2012, the Trial Court denied Hall’s motions for a new trial and for post-verdict judgment
of acquittal.8 After waiver of legal delays, the Court sentenced Hall to serve concurrent sentences
of eight years on count one and fifteen years on count two.9 The Court also denied Hall’s motion
to reconsider the sentences.10
On direct appeal to the Louisiana First Circuit Court of Appeal, Hall’s counsel asserted
that the evidence wras insufficient to support the verdicts and that the sentences were excessive.11
On .Tune 11, 2013, the Louisiana First Circuit affirmed Hall’s convictions and sentences finding
the claims meritless.

7St. Rec. Vol. 1 of 7, Trial Minutes, 3/12/12; Trial Minutes, 3/13/12; Jury Verdict, 3/13/12; St. Rec. Vol. 2
of 7, Trial Transcript, 3/12/12; Trial Transcript, 3/13/12; St. Rec. Vol. 3 of 7, Trial Transcript (continued), 3/13/12.
8St. Rec. Vol. 1 of 7, Sentencing Minutes. 5/7/12; Motion for New Trial, 4/9/12; Trial Court Order (#2),
5/7/12; Motion for Post-Verdict Judgment of Acquittal, 4/9/12; Trial Court Order (#3), 5/7/12; St. Rec. Vol. 3 of 7,
Sentencing Transcript, 5/7/12.
9St. Rec. Vol. 1 of 7, Sentencing Minutes, 5/7/12; St. Rec. Vol. 3 of 7, Sentencing Transcript, 5/7/12.
I0St. Rec. Vol. 1 of 7, Sentencing Minutes, 5/7/12; Motion to Reconsider Sentence, 5/7/12; Trial Court Order
(#1). 5/7/12; St. Rec. Vol. 3 of 7, Sentencing Transcript, 5/7/12.
uSt. Rec, Vol. 4 of 7, Appeal Brief, 20I2-KA-1812, dated 12/11/12.

3

#

The Louisiana Supreme Court denied Hall’s related writ application without stated reasons
on February' 7, 2014.12 Hall’s convictions were final under federal law ninety (90) days later, on
May 8, 2014, when he did not file a writ application with the United States Supreme Court. Ott v.
Johnson, 192 F.3d 510, 513 (5th Cir. 1999) (time for filing for certiorari with the U.S. Supreme
Court is included in the finality determination under 28 U.S.C. § 2244(d)(1)(A)); U.S. Sup. Ct.
Rule 13(1).
On July 8,2014, Hall’s retained counsel filed an application for post-conviction relief with
the state trial court which asserted two grounds for relief:13 (1) Hall was denied effective assistance
of counsel because counsel failed to consult with him, obtain his input, or use peremptory
challenges to place men on the jury; and (2) the jury was comprised of eleven women in violation
of the cross-section requirement and systematically excluded men. On August 11, 2014, the state
trial court advised Hall and his retained counsel that the application was deficient and would not
be considered by the Court until corrected.14 Neither the attorney nor Hall responded to the letter.
More than two-years and seven-months later, on March 24, 2017, Hall’s newly retained
counsel filed a motion requesting the Court address the duplicate-copy of the deficient 2014
application for post-conviction attached to the motion.15 On May 12, 2017, the state trial court
denied the motion and the application finding that the 2014 writ application was never corrected
and the copy provided was still uncorrected and untimely.16

nState v. Hall, 131 So.3d 855 (La. 2014); St. Rec. Vol. 4 of 7, La. S. Ct. Order, 2013-K-1646, 2/7/14; La. S.
Ct. Writ Application, 13-K-1646, 7/10/13.
l3St. Rec. Vol. 3 of 7, Application for Post-Conviction Relief (and Supporting Memorandum), 7/8/14.
l4St. Rec. Vol. 3 of 7, Letter to Yazbeck, 8/11/14; Letter to Hall, 8/11/14.
l5St. Rec. Vol. 3 of 7, Letter from Vicknair (and attached pleadings), 3/27/17 (dated 3/24/17).
16St. Rec. Vol. 3 of 7, Trial Court Order, 5/12/17.

4

#

#

Despite the accuracy of that ruling, on October 16,2017, the Louisiana First Circuit granted
Hall’s related pro se writ application with instructions for the state trial court to consider the new
application for post-conviction relief attached to his writ application and which was construed by
the circuit court as an attempt to correct the “timely filed 2014 application for post-conviction
relief. »17
Apparently unsure of how to execute the remand instructions, the state trial court reiterated
Hall’s failure to timely correct the 2014 application and despite this, reviewed the claims presented
in the original 2014 application finding them to be meritless.18 The Court further noted that newly
asserted issues in the “corrected” 2017 application were procedurally barred under La. Code Crim.
P. art. 930.4 and untimely under La. Code Crim. P. art. 930.8. Out of an abundance of caution,
however, the state trial court also considered those claims which were delineated as follows:19 (1)
the state trial court exceeded its jurisdiction when it refused to hold a preliminary examination to
determine probable cause for his arrest and the illegal search and seizure or hold an evidentiary
hearing on the admissibility of the police report; (2) he received ineffective assistance of counsel
when counsel’s failure to challenge the search and seizure created a conflict of interest; and (3)
appellate counsel was ineffective when he failed to assert on direct appeal that there was a
jurisdictional defect, the Fourth Amendment violations, and the ineffective assistance of trial
counsel. After review, the state trial court found these claims conclusory and meritless, and also
noted that Hall was not entitled under state law to a writ of habeas corpus.20

17State v. Hall, No. 2017KW1112, 2017 WL 4675788, at *1 (La. App. 1st Cir. Oct. 16, 2017): St. Rec. Vol.
5 of 7, 1st Cir. Order, 2017-KW-l 112, 10/16/17; 1st Cir. Writ Application, 2017-KW-l 112, 8/5/17 (dated 8/6/17).
l8St. Rec. Vol. 3 of 7, Trial Court Order, 11/29/17.
l9/r/.; St. Rec. Vol. 3 of 7, Application for Post-Conviction Relief, dated 8/6/17.
20St. Rec, Vol. 3 of 7, Trial Court Order, 11/29/17.

5

#

The Louisiana First Circuit denied Hall’s related writ application without stated reasons on
April 9, 2018.21 On April 22, 2019, the Louisiana Supreme Court denied Hall’s subsequent writ
application holding that Hall failed to show ineffective assistance of counsel under Strickland v.
Washington, 466 U.S. 668 (1984), and as to the other claims, failed to satisfy his burden of proof
under La. Code Crim. P. art. 930.2.22
II.

Federal Petition
On May 29, 2019, the clerk of this Court filed Hall’s federal petition for habeas corpus

relief in which he asserts the following grounds for relief23 First, the state trial court exceeded its
jurisdiction when it (a) refused to hold a preliminary examination to determine probable cause for
his arrest and the illegal search and seizure or suppress the evidence including the police report
because of the lack of probable cause, and (b) allowed a jury that was comprised of eleven women
in violation of the cross-section requirement and systematically excluded men. Second, Hall
alleges that he received ineffective assistance of counsel when counsel (a) failed to conduct a
preliminary hearing on probable cause to arrest which would have provided evidence to put the
state’s case to an adversarial challenge at trial, (b) failed to conduct a hearing to suppress evidence,
and (c) allowed an eleven-woman jury not representative of a cross-section of the community by
systematically excluding men from the jury.

lxState w Hall, No. 2018KW0146,2018 WL 1730174, at *1 (La. App. 1st Cir. Apr. 9,2018): St. Rec. Vol. 6
of 7, 1st Cir. Order, 2018-KW-0146, 4/9/18; 1st Cir. Writ Application, 2017-KW-0146. 4/9/18 (dated 1/29/18); see,
St. Rec. Vol. 3 of 7, Notice of Intent, 12/29/17 (dated 12/23/18); Trial Court Order, 1/4/18.
nState v. Hall, 267 So.3d 1106 (La. 2019); St. Rec. Vol. 7 of 7, La. S. Ct. Order, 20185-KH-0796, 4/22/19;
La. S. Ct. Writ Application, 18-KH-796, 5/16/18 (dated 5/3/18); St, Rec. Vol. 3 of 7. La. S. Ct. Letter. 2018-KH-796
5/16/18.
2’Rec. Doc. Nos. 1, 1-1.

6

The State filed a response in opposition asserting that Hall’s petition was not timely filed
and reserving its right to assert defenses to the merits the claims, including procedural default and
exhaustion.24 Hall filed a reply to the State’s opposition asserting that his petition was timely filed
because the delay was caused by his retained counsel’s errors in failing to timely correct and
proceed with his state court post-conviction applications.2^
III.

General Standards of Review
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), Pub. L. No. 104-

132, 1.10 Stat. 1214,26 applies to Hall’s petition, which is deemed filed in this Court under the
mailbox rule on May 24, 2019.27 The threshold questions on habeas review under the amended
statute are whether the petition is timely and whether the claim raised by the petitioner was
adjudicated on the merits in state court; /, e., the petitioner must have exhausted state court remedies
and must not be in “procedural default” on a claim. Nobles v. Johnson. 127 F.3d 409, 419-20 (5th
Cir. 1997) (citing 28 U.S.C. § 2254(b), (c)).

24Rec. Doc. No. 10.
25Rec. Doc, No. 13,
26The AEDPA comprehensively revised federal habeas corpus legislation, including 28 U.S.C. § 2254, and
applied to habeas petitions filed after its effective date, April 24, 1996. Flanagan v. Johnson. 154 F.3d 196, 198 (5th
Cir. 1998) (citing Lindh v. Murphy, 521 U.S. 320 (1997)), The AEDPA, signed into law that date, does not specify
an effective date for its non-capital habeas corpus amendments. Absent legislative intent to the contrary, statutes are
effective at the moment they are signed into law. United States v. Sherrod, 964 F.2dT501, 1505 n.l I (5th Cir, 1992).
27The Fifth Circuit has recognized that a ’‘mailbox rule” applies to pleadings, including habeas corpus
petitions filed after the effective date of the AEDPA, submitted to federal courts by prisoners acting pro se. Under
this rule, the date when prison officials receive the pleading from the inmate for delivery to the court is considered the
time of filing for limitations purposes. Coleman v. Johnson, 184 F.3d 398,401 (5th Cir. 1999); Spotville v. Cain, 149
F.3d 374, 378 (5th Cir. 1998); Cooper v. Brookshire, 70 F.3d 377, 379 (5th Cir. 1995). The clerk of court initially
filed Hall’s petition on May 29, 2019, when it was received, and the matter was opened on June 21, 2019, when the
filing fee was paid after denial of pauper status. Hall dated his signature on the form petition and memorandum on
May 24,2019. This is the earliest date appearing in the record on which he could have handed his pleadings to prison
officials for mailing to a federal court. The fact that he later paid the filing fee does not alter the application of the
federal mailbox rule to his pro se petition. See Cousin v. Lensing, 310 F.3d 843, 847 (5th Cir. 2002).

7

#

The State asserts that Hall’s federal petition was not timely filed under the AEDPA because
his 2014 state application for post-conviction relief was deficient in form and not considered by
the state court. As a result, Hall had no pending state court application or other collateral review
for well over one year after finality of the conviction. However, the State has failed to consider
the gravity’ of the rulings by the state courts in ultimately addressing that 2014 application.
The AEDPA requires a petitioner to bring his § 2254 claim within one year of the date his
conviction became final.28 Duncan v. Walker, 533 U.S. 167, 176-80(2001). As determined above
and conceded by the State, flail’s conviction was final under federal law on May 8, 2014, which
was 90 days after the Louisiana Supreme Court denied his post-appeal writ application. Pursuant
to § 2244, Hall had one year from that date, or until May 8, 2015, to timely file a federal application
for habeas corpus relief which he did not do. His petition would be untimely unless he is entitled
to statutory or equitable tolling.
Section 2244(d)(2) provides that the time during which a properly filed application for state
post-conviction or other collateral review with respect to the pertinent judgment or claim is

2SThe statute of limitations provision of the AEDPA under 28 U.S.C. § 2254(d) provides for other triggers
which do not apply here:
(1) A 1-year period of limitation shall apply to an application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court. The limitation period shall run from the latest ofA.
the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;
B.
the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was
prevented from filing by such State actions;
C.
the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
D.
the date on which the factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post-conviction or other collateral review
with respect to the pertinent judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.

8

pending shall not be counted toward any period of limitation. See 28 U.S.C. § 2244(d)(2). In
addition, the federal courts also have provided for equitable tolling where rare or extraordinary
circumstances may have prevented a diligent petitioner from timely pursuing federal habeas
corpus. Pace v, DiGuglielmo, 544 U.S. 408, 419 (2005); Fisher v. Johnson, 174 F.3d 710, 713
(5th Cir. 1999), cert, denied, 531 U.S. 1164 (2001); Cantu-Tzin v. Johnson, 162 F.3d295, 299 (5th
Cir. 199Z)\ Davis v. Johnson, 158 F.3d 806, 810-11 (5th Cir. 1998). Equitable tolling is warranted
only when the petitioner was actively misled or is prevented in some extraordinary circumstance
outside of his control from asserting his rights. Pace, 544 U.S. at 418-19.
The State asserts that Hall’s federal petition was not timely filed because Hall’s
procedurally improper 2014 post-conviction application and the resubmitted copy in 2017 (which
was procedurally improper and untimely) did not interrupt or toll the one-year AEDPA filing
period. As a result, the State argues. Hall had no properly filed state court application for post­
conviction relief or other collateral review pending in any state court for more than three years
between finality of his conviction on May 8, 2014, and at the earliest, May 6, 2017. when Hall
submitted the “corrected” application to the Louisiana First Circuit.
The State, however, reaches this conclusion without deference to the Louisiana First
Circuit’s October 16, 2017, ruling as interpreted and applied by the state trial court’s November
29,2017, ruling. Read together, it appears that the Louisiana First Circuit recognized that the 2014
application was timely and accepted the August 6, 2017 “correction” to relate back and repair any
deficiencies in the original application left unaddressed by Hall’s counsel. In other words, the
state courts appear to have considered Hall's 2014 application to have been pending in limbo the
entire time from its filing by retained counsel to its correction by Hall in 2017.

9

#

The interest'of comity and equity compel this Court to accept this determination, at a
minimum, to equitable toll Hall’s AEDPA filing period in light of the state courts’ resurrection of
the 2014 filing. The Court will consider Hall's federal petition to be timely filed, and the State’s
limitations defense must be rejected.
Although the State reserved its right to provide further briefing, the Court finds that the
record is sufficient to proceed without additional briefing. The record reflects that Hall has
exhausted state court review and that none of his claims are in procedural default. The Court will
consider Hall’s claims which were denied on the merits by the Louisiana Supreme Court.
IV.

Standards of a Merits Review
The standard of review under the Antiterrorism and Effective Death Penalty Act of 1996

(“AEDPA”), Pub. L. No. 104-132, 110 Stat. 1214, is governed by § 2254(d) and the Supreme
Court’s decision in Williams v. Taylor, 529 U.S. 362 (2000). It provides different standards for
questions of fact, questions of law, and mixed questions of fact and law.
A state court’s determinations of questions of fact are presumed correct and the Court must
give deference to the state court findings unless they were based on an unreasonable determination

£

of the facts in light of the evidence presented in the state court proceeding. 28 U.S.C. § 2254(d)(2)
(2006); see Hill v. Johnson, 210 F,3d 481,485 (5th Cir. 2000). The amended statute also codifies
the “presumption of correctness” that attaches to state court findings of fact and the “clear and
convincing evidence” burden placed on a petitioner who attempts to overcome that presumption.
28 U.S.C. § 2254(e)(1).
A state court’s determination of questions of law and mixed questions of law and fact are
reviewed under § 2254(d)(1), as amended by the AEDPA. The standard provides that deference
be given to the state court’s decision unless the decision is “contrary to or involves an unreasonable

10

application of clearly established federal law” as determined by the United States Supreme Court.
Hill, 210 F.3d at 485. The “critical point” in determining the Supreme Court rule to be applied “is
that relief is available under § 2254(d)(l)’s unreasonable-application clause if, and only if, it is so
obvious that a clearly established rule applies to a given set of facts that there could be no
‘fairminded disagreement' on the question.” White v. Woodall, 572 U.S. 415, 427 (2014) (citing
Harrington v. Richter, 562 U.S. 86, 103 (2011)). “Thus, ‘if a habeas court must extend a rationale
before it can apply to the facts at hand,' then by definition the rationale was not ‘clearly established
at the time of the state-court decision.'” White, 572 U.S. at 426 (quoting Yarborough v. Alvarado,
541 U.S. 652, 666 (2004)).
A state court’s decision can be “contrary to” federal law if: (1) the state court arrives at a
conclusion opposite to that reached by the Supreme Court on a question of law; or (2) the state
court decides a case differently than the Supreme Court has on a set of materially indistinguishable
facts. Williams, 529 U.S. at 405-06, 412-13; Penry v. Johnson, 532 U.S. 782, 792-93 (2001); Hill,
210 F.3d at 485. A state court’s decision can involve an “unreasonable application” of federal law
if it correctly identifies the governing rule but then applies it unreasonably to the facts. White, 572
U.S. at 426-27: Williams, 529 U.S. at 406-08, 413; Penry, 532 U.S. at 792.
The Supreme Court in Williams did not specifically define “unreasonable” in the context
of decisions involving unreasonable applications of federal law. See Williams, 529 U.S. at 410.
The Court, however, noted that an unreasonable application of federal law is different from an
incorrect application of federal law. Id. ‘“[A] federal habeas court may not issue the writ simply
because that court concludes in its independent judgment that the state-court decision applied [a
Supreme Court case] incorrectly.’” Price v. Vincent, 538 U.S. 634, 641 (2003) (quoting Woodford

II

v. Visciotti, 537 U.S. 19, 24-25 (2002)) (brackets in original); Bell v. Cone, 535 U.S. 685, 699
(2002).

Thus, under the “unreasonable application" determination, the Court need not determine
whether the state court's reasoning is sound, rather “the only question for a federal habeas court is
whether the state court’s determination is objectively unreasonable.” Neal v. Puckett, 286 F.3d
230, 246 (5th Cir. 2002). The burden is on the petitioner to show that the state court applied the
precedent to the facts of his case in an objectively unreasonable manner. Price, 538 U.S. at 641
(quoting Woodford, 537 U.S. at 24-25); Wright v. Quarterman, 470 F.3d 581, 585 (5th Cir. 2006).
In addition, review under § 2254(d)(1) is limited to the record before the state court that
adjudicated the claim on the merits. Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
V.

Denial of Pretrial Hearings and Jury Selection
Hall alleges that the state trial court exceeded its jurisdiction when it failed to conduct a

preliminary examination to determine probable cause for his arrest and the resultant search and
seizure. Hall also contends that the state trial court should have held a hearing to suppress the
evidence and the police report based on the lack of probable cause for the arrest. Broadly
construed, he also asserts that the state trial court erred when it allowed the jury to be comprised
of eleven women and one man which resulted in the systematic exclusion of men in violation of
his right to have a jury made up of a fair cross-section of the community.
Hall asserted these claims on post-conviction review in the state courts. The state trial
court denied relief on the matters related to the probable cause determination and the search and
seizure, finding that the claims were procedural!}' barred. Alternatively, the Court also held that
Hall failed to establish that hearings were necessary to determine probable cause or that there was
a lack of probable cause for his arrest or the search conducted after he shot at the police officers.

12

The state trial court also denied relief on the jury composition issue relying on United States
Supreme Court precedent to find that Hall had no constitutionally protected right to a
representative petit jury and that Hall failed to establish that either his counsel or the prosecutor
had systematically excluded men from the jury. While the Louisiana First Circuit summarily
denied relief, the Louisiana Supreme Court held that Hall failed to meet his burden of proof under
La. Code Grim. P. art. 930.2 on these claims.
A.

State Trial Court Error in General

Hall’s arguments based on alleged error by the state trial court or abuse of its jurisdictional
authority under state law do not involve consideration of any questions of federal or constitutional
law, and review of such claims is not proper on habeas review. See Lavernia v. Lynaugh, 845 F.2d
493, 496 (5th Cir. 1988) (the failure to grant a mistrial is a matter of state law and not one of a
constitutional dimension); Haygood v. Quarterman, 239 F. App’x 39, 42 (5th Cir. 2007) (state
court’s denial of a motion for a new trial does not necessarily constitute a violation of a federal
constitutional right) (citing Dickerson v. Guste, 932 F.2d 1142, 1145 (5th Cir. 1991)). Federal
habeas coipus review instead is limited to questions of federal constitutional dimension, and
federal courts do not review alleged errors in the application of state law. A federal court does
“not sit as [a] ‘super’ state supreme court in a habeas corpus proceeding to review errors under
state law.” Wilkerson v. Whitley, 16 F.3d 64, 67 (5th Cir. 1994) (citation and. quotation omitted);
Swarthout v. Cooke. 562 U.S. 216, 219 (2011) (federal habeas review does not lie for errors of
state law).

“[I]t - is not the province of a federal habeas court to reexamine state-court

determinations on state-law* questions.” Estelle v. McGuire, 502 U.S. 62, 67-68 (1991); see also
Molo v. Johnson, 207 F.3d 773, 776 n. 9 (5th Cir. 2000) (“Federal habeas review does not extend

13

to state court conclusions of state law.”). Any alleged impropriety based on state law does not
warrant federal habeas review or relief.
B.

Fourth Amendment Claims

This federal court’s review of Hall’s Fourth Amendment claims is limited by the Supreme
Court’s long-standing prohibition in Stone v, Powell, 428 U.S. 465 (1976). In Stone, the Supreme
Court held that “where the State has provided an opportunity for full and fair litigation of a Fourth
Amendment claim, a state prisoner may not be granted federal habeas corpus relief on the ground
that evidence obtained in an unconstitutional search or seizure was introduced at trial.” (footnotes
omitted) Id. at 494. The “full and fair” healing contemplated by Stone refers to thoughtful
consideration by the factfinder and at least the availability of meaningful appellate review by a
higher state court. Davis v. Blackburn, 803 F.2d 807, 808 (5th Cir. 1986); O Berry v. Wainwright,
546 F.2d 1204, 1213 (5th Cir. 1977). The Stone bar applies even in the face of alleged error by
the state court in deciding the merits of the Fourth Amendment claim. Swicegood v. Alabama, 577
F.2d 1322, 1324-1325 (5th Cir. 1978); Moreno v. Dretke, 450 F.3d 158, 167 (5th Cir. 2006). The
Stone bar applies “with equal force” when the state court’s disposition of the Fourth Amendment
claim is made on procedural grounds. Williams v. Brown, 609 F.2d 216, 219-20 (5th Cir. 1980).
The United States Fifth Circuit has interpreted an “opportunity for full and fair litigation”
to mean just that, “an opportunity.” Caver v. Alabama, 511 F.2d 1188, 1192 (5th Cir. 1978);
Janecka v. Cockrell, 301 F.3d 316, 320 (5th Cir. 2002). “If a state provides the processes whereby
a defendant can obtain full and fair litigation of a fourth amendment claim, Stone v. Powell bars
federal habeas corpus consideration of that claim whether or not the defendant employs those
processes.” Caver, 511 F.2d at 1192. “[I]t is the existence of state processes allowing an
opportunity for full and fair litigation of fourth amendment claims, rather than a defendant’s use

14

of those processes, that serves the policies underlying the exclusionary rule and bars federal habeas
corpus consideration of claims under Stone v. Powell* Williams, 609 F.2d at 220.
Thus, it is the opportunity to present a Fourth Amendment claim to the state courts that is
the basis of the Stone prohibition without regard for whether that opportunity is actually exercised
by the petitioner or his attempts at relief were unsuccessful. Janecka, 301 F.3d at 320-21. This
Court has repeatedly held that “[i]t is beyond cavil that Louisiana courts provide criminal
defendants the opportunity to raise Fourth Amendment claims/’ Bailey v. Cain. No. 06-839,2007
WL 1198911, at *13 (E.D. La. Apr. 20, 2007) (order adopting report and recommendation). Even
when a state defendant fails to take advantage of the opportunity to litigate a motion to suppress
or assert a Fourth Amendment claim, the fact that the opportunity existed suffices for the Stone
bar to apply to prevent federal habeas review. Id. at 320. The Stone rule applies to all claims
arising under the Fourth Amendment including lawfulness of the arrest. See. e.g., Cardwell v.
Taylor, 461 U.S. 571, 572 (1983) (false arrest); Williams v. Collins, 16 F.3d 626, 637-38 (5th Cir.
1994) (unlawful search and seizure). Therefore, absent proof by Hall that he was denied a hill and
fair review of his Fourth Amendment claims in state courts, which he was not, his request for
federal habeas relief based upon Fourth Amendment violations is precluded. Stone, 428 U.S. at
494-95 n.37; Bell v. Lynaugh, 828 F.2d 1085, 1091-92 (5th Cir. 1987); Davis, 803 F.2d at 1372.
Hall has not met his burden of overcoming the Stone v. Powell bar to this Court’s review
of his Fourth Amendment claims addressing the state trial court’s consideration of probable cause
for and the legality of his arrest and the search and seizure. The Court will not review these claims.
C.

Jury Composition

. Broadly construed, Hall asserts that the state trial court violated his constitutional right to
a jury comprised of fair cross-section of the community when the court allowed his criminal trial

15

to proceed before eleven women and one man showing a systematic exclusion of men. The Court
first notes that the Supreme Court has repeatedly refused to extend the Sixth Amendment’s fair
cross-section requirement to the selection of a jury once that jury panel or venire has been
constituted. See Holland v. Illinois, 493 U.S. 474,486-87 (.1990) (holding the Sixth Amendment’s
fair cross-section requirement does not mirror the Equal Protection Clause’s proscription against
racial discrimination in the exercise of peremptory challenges): Teague v. Lane, 489 U.S. 288,
314-15 (1989) (recognizing that the denial of the right to a fair cross-section of the community in
a jury venire does not undermine the fundamental fairness that must underlie a criminal
conviction). Nevertheless, because the claim was entertained by the state,courts on post-conviction
review, the Court will address the matter in accord with the AEDPA standards of review.
The question of whether a defendant was denied the right to a j ury selected from a fair
cross-section of the community is a mixed question of law and fact. United States v. Suggs, 531
F. App'x 609, 618 (6th Cir. 2013). This court must determine whether the state courts’ denial of
relief on this claim was contrary to, or an unreasonable application of, Supreme Court law.
A party has a right to have a fair cross-section of the community on panels from which
juries are chosen. Duren v. Missouri, 439 U.S. 357, 364 (1979). However, this does not mean that
the Constitution guarantees a “jury of any particular composition.” Paredes v. Quarterman, 574
F.3d 281, 289 (5th Cir. 2009). Instead, to present a prima facie of the denial of this right, a
petitioner must prove that (1) the group alleged to be excluded is qualifies as “distinctive” group
in the community (2) the representation of this group in venires is not fair and reasonable in relation
to the numbers of such persons in the community, and (3) “systematic exclusion” in the juryselection process accounts for the under-representation. Duren, 439 U.S. at 364; Berghuis v. Smith,
559 U.S. 314, 327 (2010). It is the burden of the petitioner to make this showing. United States

16

v. Aponte-Suarez, 905 F.2d 483, 492 (1st Cir. 1990). The Fifth Circuit has held that a petitioner’s
failure to meet any one of the Duren elements defeats the fair cross-section claim. United States
v. Williams, 264 F.3d 561, 568-69 (5th Cir. 2001).
Thus, as noted by the state trial court, the record does not support any basis for Hall’s claim
that men were systematically excluded from the jury venire by his counsel, by the State, or by any
system in place in Washington Parish. Even if males may have been underrepresented on Hall’s
petit jury, he has not established that the underrepresentation was the result of a systematic
exclusion as required by United States Supreme Court precedent to state a claim of denial of the
right to representative jury pool.
Instead, Hall specifically complains about the makeup of the petit jury chosen in his case.
Duren does not require that “juries actually chosen must mirror the community.” Taylor v.
Louisiana, 419 U.S. 522, 538 (1975); Hearn v. Cocbell, 73 F. App’x 79, 2003 WL 21756441, at
*1, *6 (5th Cir. Jun. 23, 2003). “The fair-cross-section requirement. . . only guarantees that the
jury wheels, pools of names, panels, or venires horn which juries are drawn must not
systematically exclude distinctive groups.” Paredes, 574 F.3d at 289 (internal quotations and
citations omitted). Hall, however, does not identify any procedure or selection criteria used in
Washington Parish that operated to systematically exclude males from the venire from which that
jury was selected.
Under Duren, Hall must establish that any underrepresentation of men is the general
practice in Washington Parish. See Timmel v. Phillips, 799 F.2d 1083, 1083 (5th Cir. 1986). To
meet his burden, Hall must demonstrate “that a large discrepancy occurred not just occasionally
but in every weekly venire” over some significant period of time to establish systemic
underrepresentation. See Duren, 439 U.S. at 366. Here, Hall did not present the state courts or

17.

this federal habeas court with any statistics regarding the breakdown in population of genders or
other demographics in Washington Parish. He made no showing of the selection process of a
number ofjury venires over a period of time.
In short, Hail presented no evidence, statistical or otherwise, demonstrating the degree of
underrepresentation or systematic exclusion of men or other identifiable group or how Washington
Parish's procedure constituted a system impermissibly susceptible to abuse and discrimination.
He has presented no basis for any court to find that the jury venire was systematically manipulated
to exclude men. As resolved by the state courts, his conclusory allegations were insufficient to
meet his burden under Duren and its progeny.
The denial of relief on this issue was not contrary to or an unreasonable application of
federal law. Hall is not entitled to relief on this claim.
VI.

Effective Assistance of Counsel
Hall alleges that he was provided ineffective assistance when his trial counsel had a conflict

of interest when he failed to request a preliminary hearing to determine probable cause for his
arrest which could have provided evidence to put the state’s case to an adversarial challenge at
trial. He also claims that his counsel was conflicted when he failed to request a hearing to suppress
evidence based on the unlawful search and seizure and allowed him to be tried by an elevenwoman jury that did not represent a fair cross-section of the community and systematically
excluded men from the jury.
Hall asserted these arguments on post-conviction review in the state courts. The Louisiana
Supreme Court ultimately denied relief based on Hall's failure to show entitlement to relief under
the Strickland standards.

In Strickland, the Supreme Court established a two-part test for

evaluating claims of ineffecti ve assistance of counsel in which the petitioner must prove deficient

18

performance and prejudice therefrom. See Strickland, 466 U.S. at 687. The petitioner has the
burden of proving ineffective assistance of counsel by a preponderance of the evidence. Montoya
v. Johnson, 226 F.3d 399, 408 (5th Cir. 2000); Jernigan v. Collins, 980 F.2d 292, 296 (5th Cir.
1992). In deciding ineffective assistance claims, a court need not address both prongs of the
conjunctive Strickland standard, but may dispose of such a claim based solely on a petitioner’s
failure to meet either prong of the test. Amos v. Scott, 61 F.3d 333, 348 (5th Cir. 1995).
To prevail on the deficiency prong, petitioner must demonstrate that counsel’s conduct
failed to meet the constitutional minimum guaranteed by the Sixth Amendment. See Styron v.
Johnson, 262 F.3d 438, 450 (5th Cir. 2001).

“The defendant must show -that counsel’s

representation fell below an objective standard of reasonableness.” Strickland, 466 U.S. at 68788. The analysis of counsel’s performance must take into account the reasonableness of counsel’s
actions under prevailing professional norms and in light of all of the circumstances. See id., 466
U.S. at 689; Carry v. Thaler, 583 F.3d 244, 258 (5th Cir. 2009). The reviewing court must “judge
. . . counsel’s challenged conduct on the facts of the particular case, viewed as of the time of
counsel’s conduct.” Roe v. Flores-Ortega, 528 U.S. 470, 477 (2000) (quoting Strickland, 466 U.S.
at 690). Petitioner must overcome a strong presumption that the conduct of his counsel falls within
a wide range of reasonable representation. Harrington, 562 U.S. at 104 (citing Strickland, 466
U.S. at 689). “[I]t is all too easy to conclude that a particular act or omission of counsel was
unreasonable in the harsh light of hindsight.” Bell, 535 U.S. at 702 (citing Strickland, 466 U.S. at
689). As a result, federal habeas courts presume that trial strategy is objectively reasonable unless
clearly proven otherwise. Strickland, 466 U.S. at 689; Johnson v. Dretke, 394 F.3d 332, 337 (5th
Cir. 2004) (counsel’s “conscious and informed decision on trial tactics and strategy cannot be the
basis for constitutionally ineffective assistance of counsel unless it is so ill chosen that it permeates

19

the entire trial with obvious unfairness.”) (quoting United States v. Jones, 287 F.3d 325, 331 (5th
Cir. 2002)); Geiger v. Cain, 540 F.3d 303, 309 (5th Cir. 2008).
To prove prejudice, the petitioner “must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694; Williams v. Thaler, 602 F.3d 291, 310 (5th Cir. 2010). Furthermore,
“[t]he petitioner must ‘affirmatively prove,’ and not just allege, prejudice.” Day v. Quarterman,
566 F.3d 527, 536 (5th Cir. 2009) (quoting Strickland, 466 U.S. at 695). In this context, “a
reasonable probability is a probability sufficient to undermine confidence in the outcome.” Cullen,
563 U.S. at 189 (quoting Strickland, 466 U.S. at. 694). This standard requires a “substantial,” not
just “conceivable,” likelihood of a different result. Harrington, 562 U.S. at 112. To determine
whether prejudice occurred, courts must review the record to determine “the relative role that the
alleged trial errors played in the total context ot [the] trial.” Crockett v. McCoiter, 796 F.2d 787,
793 (5th Cir. 1986). Thus, conclusory allegations of ineffective assistance of counsel, with no
showing of effect on the proceedings, do not raise a constitutional issue sufficient to support federal
habeas relief. Miller v. Johnson, 200 F.3d 274, 282 (5th Cir. 2000) (citing Ross v. Estelle, 694
F.2d 1008, 1012 (5th Cir. 1983)).
On habeas review, the Supreme Court has clarified that, in applying Strickland, “[t]he
question is whether an attorney’s representation amounted to incompetence under prevailing
professional norms, not whether it deviated from best practices or most common custom.
Harrington, 562 U.S. at 105. The Harrington Court went on to recognize the high level of
deference owed to a state court’s findings under Strickland in light of AEDPA standards of review:
The standards created by Strickland and §2254(d) are both highly deferential, and
when the two apply in tandem, review is doubly so. The Strickland standard is a
general one, so the range of reasonable applications is substantial. Federal habeas

20

courts must guard against the danger of equating unreasonableness under Strickland
with unreasonableness under § 2254(d). When § 2254(d) applies, the question is
not whether counsel’s actions were reasonable. The question is whether there is
any reasonable argument that counsel satisfied Strickland's deferential standard.
Id., at 105 (citations and quotation marks omitted).
Thus, scrutiny of counsel’s performance under § 2254(d) therefore is “doubly deferential.”
Cullen, 563 U.S. at 190 (quoting Knowles v. Mirzayance, 556 U.S. Ill, 112 (2009)). The federal
courts must take a “highly deferential” look at counsel’s performance under the Strickland standard
through the “deferential lens of § 2254(d).” Id. (citing Strickland, 466 U.S. at 689, and quoting
Knowles, 556 U.S. at 121 n.2). This Court must also apply the “strong presumption” that counsel’s
strategy and defense tactics fall “within the wide range of reasonable professional assistance.”
Strickland, 466 U.S. at 690; Moore v. Johnson, 194 F.3d 586, 591 (5th Cir. 1999).
Federal habeas courts presume that trial strategy is objectively reasonable unless clearly
proven otherwise by the petitioner. Strickland, 466 U.S. at 689; Geiger, 540 F.3d at 309; Moore,
194 F.3d at 591. In assessing counsel’s performance, a federal habeas court must make every
effort to eliminate the distorting effects of hindsight, to reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct from counsel’s perspective at the time of trial.
Strickland, 466 U.S. at 689; Neal, 286 F.3d at 236-37; Clark v. Johnson, 227 F.3d 273, 282-83
(5th Cir. 2000).

Tactical decisions, when supported by the circumstances, are objectively

reasonable and do not amount to unconstitutionally deficient performance. Lamb v. Johnson, 179
F.3d 352. 358 (5th Cir. 1999) (citing Rector v. Johnson, 120 F.3d 551, 564 (5th Cir. 1997) and
Mann v. Scott, 41 F.3d 968, 983-84 (5th Cir. 1994)).
The denial of effective assistance of counsel under Strickland is a mixed question of law
and fact. Clark v. Thaler, 673 F.3d 410, 416 (5th Cir. 2012); Woodfox v. Cain, 609 F.3d 774, 789

21

(5th Cir. 2010). The Court must determine whether the state courts’ denial of relief was contrary
to or an unreasonable application of Supreme Court law.
The Court first notes that Hall inappropriately uses the phrase “conflict of interest” in his
efforts to allege prejudice resulting from his trial counsel’s alleged deficient performance. There
is no doubt that Hall has a Sixth Amendment right to representation free from any conflict of
interest. Morin v. Thaler, 374 F. App’x 545, 551 (5th Cir. 2010). The Supreme Court has held
that prejudice is presumed when counsel is burdened with an actual conflict of interest. Cuyler v.
Sullivan, 466 U.S. 335, 350 (1980). An actual conflict exists when counsel engages in “multiple
representation” and “actively represented conflicting interests.” Cuyler, 466 U.S. at 349-50
(1980); Beets v. Scott, 65 F.3d 1258, 1265-66 (5th Cir. 1995). The Fifth Circuit has instructed that
Strickland more appropriately gauges other alleged personal conflicts between counsel and the
client. Beets, 65 F.3d at 1260. The appropriate measure of counsel’s assistance in this case is
Strickland, which was-relied on by die state courts to address Hall’s claims, and no prejudice is
presumed.
A.

Probable Cause for Arrest

Hall first claims that his counsel was ineffective for failing to assure that a probable cause
hearing was held. Generally, a probable cause determination should be made within a reasonable
time following a warrantless arrest. County of Riverside v. McLaughlin, 500 U.S. 44, 56 (1991);
see also Gerstein v. Pugh, 420 U.S. 103 (1975). “Under Gerstein, warrantless arrests are permitted
but persons arrested without a warrant must promptly be brought before a neutral magistrate for a
judicial determination of probable cause.” McLaughlin, 500 U.S. at 53; Baker v. McCollan, 443
U.S. 137, 143 (1979). However, the failure timely to determine probable cause does negate the
trial or conviction and cannot be used as grounds to challenge the conviction itself. See Gerstein,

22

,

420 U.S. at 119 (“a conviction will not be vacated on the ground that the defendant was detained
pending trial without a determination of probable cause.’')
Thus, even assuming that Hall’s counsel should have requested a probable cause
determination, that error alone would not have avoided trial or acted as a basis to challenge the
conviction. Counsel’s failure to request a probable cause hearing was not prejudicial under the
Strickland standards.
Hall also suggests that, had his counsel required a probable cause hearing, counsel could
have found other evidence to challenge the State’s case at trial. Hall absolutely fails to indicate
what if any evidence would have been discovered had counsel called for a probable cause hearing.
When such an allegation is made, the habeas petitioner “must allege with specificity” what could
have been discovered had counsel done more investigation “and how it would have altered the
outcome of the trial.” Druery v. Thaler, 647 F.3d 535, 541 (5th Cir. 2011) (quotation omitted)
(emphasis added); accord Moawad v. Anderson, 143 F.3d 942, 948 (5th Cir. 1998). Hall has not
met this burden.
Instead, amidst his ineffective assistance argument, Hall dives into a discussion of the
sufficiency of the evidence presented at trial under Jackson v. Virginia, 443 U.S. 307 (1979). He
. has not specifically raised that claim in this Court but it was asserted on state court direct appeal.
The Court has thoroughly reviewed Hall’s arguments in light of his ineffective assistance of
counsel claims and has found no indication of any evidence that could have been obtained by
counsel at a probable cause hearing that was not presented by the State (or defense) at trial.
Furthermore, the Court notes that the Louisiana First Circuit properly applied Jackson,
which requires a court to determine whether, after viewing the record and the evidence in the light
most favorable to the prosecution, a rational trier of fact could have found the essential elements

23

»

j

i

of the crime proven beyond a reasonable doubt.29 Jackson, 443 U.S. at 319; Perez v. Cain, 529
F.3d 588, 594 (5th Cir. 2008); Williams v. Cain, 408 F. App’x 817, 821 (5th Cir. 2011). The Court
also recognized that it could not review of the weight of the evidence or the credibility of the
witnesses, because those determinations are the exclusive province of the jury. United States v.
Young, 107 F. App’x 442, 443 (5th Cir. 2004) (per curiam) (citing United States v. Garcia, 995
F.2d 556, 561 (5th Cir. 1993)); see also Jackson, 443 U.S. at 319 (noting that it is the jury’s
responsibility “to resolve conflicts in the testimony, to weigh the evidence, and to draw reasonable
inferences from basic facts to ultimate facts”).
The Court indicated that aggravated battery was defined by La. Rev. Stat. Ami. § 14:34 as
“a battery committed with a dangerous weapon.” Attempted manslaughter was defined as any
action taken towards a manslaughter, which is “a homicide . . . committed in sudden passion or
heat of blood immediately caused by provocation sufficient to deprive an average person of his
self-control and cool reflection.” La. Rev. Stat. Ann. § 14:31(A)(1). The Court then reviewed the
trial testimony which included Hall’s testimony that he did not point the gun at the officers and
that the gun only went off when he fell to the floor after being tasered.
However, Mrs. Hall and the officers each testified that Hall slammed the door on the taser
leads which broke and fell to the ground. In addition, their testimony indicated that Hall was angry
and noncompliant and. after the door closed and knowing the officers were standing there, Hall
fired one shot through the door and then 35 seconds later, fired a second shot through the door.
One shot grazed one officer and the other shot hit the other officer in the hand. As the state court

29Claims of insufficient evidence under Jackson present a mixed question of law and fact. Perez v. Cain, 529
F.3d 588, 594 (5th Cir. 2008); Maes v. Thomas, 46 F.3d 979, 988 (10th Cir. 1995). A federal habeas court gives
deference to the state court’s findings unless the decision was contrary to, or involved an unreasonable application of,
Supreme Court law. Miller v. Johnson, 200 F.3d 274,281 (5th Cir. 2000).

24

#

concluded., this evidence was sufficient to support the jury's verdicts. Hall has not established that
the state courts' denial of his insufficient evidence claim was contraiy to or an unreasonable
application of Jackson.
Hall also has not established through this lengthy detour how his counsel’s performance
was deficient or altered the outcome of the trial. In other words, he has failed to establish
ineffective assistance of counsel based on his counsel’s failure to seek a probable cause hearing.
The denial of relief on this claim was not contraiy to or an unreasonable application of Strickland.
B.

Move to Suppress

Hall next claims that his counsel should have moved to suppress the evidence seized as a
result of an allegedly unlawful search. As noted by the state trial court, Hall fails to indicate to
what evidence he refers. Nevertheless, in addressing his claims, the state trial court resolved that
the trial evidence proved the officers did not conduct any searches or seizures until after Hall fired
shots at them and he was placed under arrest. In making these findings, the state trial court resolved
that any search and seizure incident to the arrest was lawful and no motion to suppress was
warranted. As such, the court held “counsel was not ineffective in failing to raise the issue. ”30
The record supports the underlying factual findings made by the state court. The officers
did not enter Hall’s home, search his property, or seize anything until after he was arrested for
shooting at both officers. It is well settled that counsel is not required by the Sixth Amendment to
file meritless motions. Johnson v. Cockrell, 306 F.3d 249, 255 (5th Cir. 2002) (counsel is not
required to make futile motions or frivolous objections); Koch v. Puckett, 907 F.2d 524, 530 (5th
Cir. 1990) (concluding that “counsel is not required to make futile motions or objections.”);

30St. Rec. Vol. 3 of 7, Trial Court Ol der, 11/29/17.

25

#

Williams v. Cain, Nos. 06-0224 c/w 06-0334, 2009 WL 1269282, at *12 (E.D. La. May 7, 2009)
(“Counsel is not considered ineffective for failing to assert a baseless and frivolous motion."). For
this reason, counsel's failure to file a motion that ultimately would be denied “cannot form the
basis of a successful ineffective assistance of counsel claim because the result of the proceeding
would not have been different had the attorney raised the issue.” United States v. Kimler, 167 F.3d
889, 893 (5th Cir. 1999); United States v. Gibson, 55 F.3d 173, 179 (5th Cir. 1995) (counsel’s
failure to file motion to suppress on a meritless ground was not deficient performance); Johnson,
306 F.3d at 255; Smith v. Puckett, 907 F.2d 581, 585 n.6 (5th Cir. 1990). For these reasons, Hall
has failed to establish that the denial of relief on this claim was contrary to or an unreasonable
application of Strickland.
C.

Jury Composition

Finally, Hall alleges that his counsel was ineffective for selecting and allowing him to go
to trial before a jury' that was made up of eleven women and one man, which was not a fair crosssection of the community and systematically excluded men.
To the extent Hall suggests that counsel improvidently used peremptory challenges, he has
done so only superficially and has otherwise failed to establish that counsel acted unreasonably in
excluding any particular juror. Under Strickland and its progeny, “[tjhe attorney’s actions during
voir dire are considered to be a matter of trial strategy.” Teague v. Scott, 60 F.3d 1167, 1172 (5th
Cir. 1995). This general rule applies to an attorney’s decision whether to exercise a peremptory7
strike. See, e.g.,Ray x: Johnson, No. 98-10659,1999 WL 800173, at *1 (5th Cir. Sept. 20, 1999);
Tolliver v. United States, No. 07cv525, 2009 WL 1393300, at *6 (S.D. Ill. May 15, 2009) (“[T]he
decision of when to use a peremptory strike lies firmly within the realm of‘strategic choices’ that
the Court will not second guess on collateral review.'’)

26

Hall’s conclusory claims do not

#

demonstrate that counsel’s decisions during voir dire were other than reasonable and sound trial
strategy.
Furthermore, the Supreme Court precedent has "never invoked the fair-cross-section
principle to invalidate the use of either for-cause or peremptory challenges to prospective jurors,
or to require petit juries ...” Lockhart v. McCree, 476 U.S. 162,173 (1986). Hall cannot conflate
his fair cross-section claim with a challenge to his counsel's use of peremptory challenges during
voir dire.
In addition, the state courts and this federal court have concluded that Hall has not made a
prima facie showing of a fair cross-section claim under Duren and its progeny. For this additional
reason, Flail has not shown that counsel erred in seating the petit jury or that there were grounds
for counsel to have challenged to composition of the jury itself. Hall had no right to a representative
petit jury. Under the doubly deferential standard invoked by Strickland on habeas review, Hall
has failed to establish that his counsel was deficient or caused prejudice to the proceeding.
Hall has not shown that the state courts’ denial of relief was contrary to or an unreasonable
application of Strickland. He is not entitled to relief on this claim.
VII.

Recommendation
For the foregoing reasons, it is RECOMMENDED that Hall’s petition for issuance of a

writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 be DENIED and DISMISSED WITH
PREJUDICE.
A party’s failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days
after being served with a copy shall bar that party, except upon grounds of plain error, from
attacking on appeal the unobjected-to proposed factual findings and legal conclusions accepted by

27

#

the district court, provided that the party has been served with notice that such consequences will
result from a failure to object. Douglass v. UnitedServs. Auto. Assoc., 79 F.3d 1415, 1430 (5th
Cir. 1996)/’
New Orleans, Louisiana, this 27th day of November, 2019.

KAREN WELL&BQPY
CHIEF UNITED STATES MAGISTRATE JUDGE

3!Douglass referenced the previously applicable ten-day period for the filing of objections. Effective
December 1,2009, 28 U.S.C. § 636(b)(1) was amended to extend the period to fourteen days.

28

